rom
I
2311 Douglas Street COC K L E

+ E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B y refs contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-827

UNITED STATES OF AMERICA,
Petitioner,
v.
ZAYN al-ABIDIN MUHAMMAD HUSAYN,
aka ABU ZUBAYDAH, et al.
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF OF EVIDENCE LAW
PROFESSORS AS AMICI CURIAE IN SUPPORT OF RESPONDENTS in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 4928 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 19th day of August, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Kebraska
A RENEE J. GOSS Konee. 0. Looe” debra K- Ghi

fy Conim. Exp. Saptambar 5, 2023
Notary Public / Affiant

 

41272
